Attorneys for Petitioner
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Party name: United States
Attorneys for Respondent
Jeffrey L. Fisher
Counsel of Record
Stanford Law School
Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305-8610
jlfisher@law.stanford.edu
(650) 724-7081
Party name: Michael Andrew Gary

